                                                                              Legal Services Corporation

utb LSC                                                                       Office of Inspector Gcncral




In spec lor Ge nera l
Jeffrey E. Schanz



         September 30,2009


         Ms. Lorraine A. Green
         Interim Inspector General
         Office of Inspector General
         National Passenger Railroad Corporation (Amtrak)
         10 G Street, NE, Suite 3W-300
         Washington, D.C. 20002-4285

         Subject:       System Review Report on the Amtrak's Office of Inspector General
                        Audit Organization

         Dear Ms. Greene:

         Attached are the final System Review Report of the Amtrak's Office of Inspector
         General audit organization and the associated Letter of Comment.             Your
         responses to the draft report and draft letter of comment are included as
         attachments to the respective reports with excerpts and our position incorporated
         into the relevant sections of each report.

         We agree with your proposed corrective actions to the recommendations. We
         thank you and your staff for the assistance and cooperation provided during the
         review.

         Sincerely,

         'J?f/i ~ Q~
       Qff~ey ~chanz~~
         Inspeclor General


         Enclosure




                                                                              3333 K Street. NW 3rd Floor
                                                                              Washington. DC 20007·3522
                                                                              Phone 202.295.1660 Fax 202.337.6616
                                                                              'WWN.oig.lsc.gov
                                                                                                 Legal Services Corporation

=u!!: LSC                                                                                        Offi ce ofInspector General




In sprclo r General
Jeffrey E. Schanz                             System Review Report


         September 30, 2009

         Lorraine A. Green
         Interim Inspector General
         Office of Inspector General
         National Passenger Railroad Corporation
         10 G Street, NE
         Washington, D.C. 20002

         Dear Ms. Green:

         We have reviewed the system of quality control for the audit function of National
         Passenger Railroad Corporation's (Amtrak) Office of Inspector General (OIG) in
         effect for the year ended September 30, 2008. Amtrak OIG's system of quality
         control encompasses its organizational structure and the policies adopted and
         procedures established to provide it with reasonable assurance of conforming
         with Government Auditing Standards. The elements of quality control are
         described in Government Auditing Standards. Amtrak OIG is responsible for
         designing a system of quality control and complying with it to provide Amtrak OIG
         with reasonable assurance of performing and reporting in conformity with
         applicable professional standards in all material respects. Our responsibility is to
         express an opinion on the design of the system of quality control and Amtrak
         OIG's compliance with that system based on our review.

         Our review was conducted in accordance with Government Auditing Standards
         and guidelines established by the President's Council on Integrity and Efficiency
         (PCIE) and the Executive Council on Integrity and Efficiency (ECIE)1. During our
         review, we interviewed Amtrak OIG personnel and obtained an understanding of
         the nature of the Amtrak OIG audit function, and the design of the Amtrak OIG's
         system of quality control sufficient to assess the risks implicit in its audit function.
         Based on our assessments, we selected audits and administrative files to test for
         conformity with professional standards and compliance with the Amtrak OIG's
         system of quality control. The audits selected represented a reasonable cross-
         section of the Amtrak OIG's audit function. Prior to concluding the review, we
         met with Amtrak OIG management to discuss the results of our review. We


         I As part of the Inspector General Reform Act of2008, the PCIE and ECIE were merged and became the

         Council of the Inspectors General on Integrity and Efficiency                         3333 KStreet, NW 3rd Ftoor
                                                                                               Washington, DC 20007-3522
                                                                                               Phone 202.295.1660 Fax 202.337.6616
                                                                                                 www.oig.lsc.gov
believe that the procedures we performed provide a reasonable basis for our
opinion.

In performing our review, we obtained an understanding of the system of quality
control for the Amtrak OIG's audit function. In addition, we tested compliance
with the Amtrak OIG's quality control policies and procedures to the extent we
considered appropriate. These tests covered the application of the Amtrak OIG's
policies and procedures on selected audits. Our review was based on selected
tests; therefore, it would not necessarily detect all weaknesses in the system of
quality control or all instances of noncompliance with it.

There are inherent limitations in the effectiveness of any system of quality control
and therefore noncompliance with the system of quality control may occur and
not be detected. Projection of any evaluation of a system of quality control to
future periods is subject to the risk that the system of quality control may become
inadequate because of changes in conditions, or because the degree of
compliance with the policies or procedures may deteriorate. Attachment 1 to this
report identifies the offices of the Amtrak OIG that we visited and the audits that
we reviewed.

In our opinion, except for the deficiencies described below, the system of quality
control for the audit function of Amtrak OIG in effect for the year ended
September 30, 2008 has been suitably designed and complied with to provide
Amtrak OIG with reasonable assurance of performing and reporting in conformity
with applicable professional standards in all material respects. Federal audit
organizations can receive a rating of pass, pass with deficiencies, or fail. Amtrak
OIG has received a peer review rating of pass with deficiencies.

We noted two deficiencies during our review. First, Amtrak's quality control
system requirements need to be followed and all requirements of the quality
control system need to be made mandatory for projects classified as limited
scope audits. Second, Amtrak's system for monitoring continuing professional
education did not ensure that all staff members obtained appropriate CPE credits
to meet Government Auditing Standards.


1. Deficiency - Amtrak OIG needs to ensure that its quality control system is
followed, particularly in regard to independent report referencing, and Amtrak
needs to improve its quality control system for projects identified as "limited
scope audits." Because some elements of the control system designed by
Amtrak OIG to ensure compliance with Government Auditing Standards were not
followed, three of the four audits reviewed contained deficiencies that were not
identified and corrected before the reports were issued.

   a. Amtrak's audit policy, Section 11-14, "Audit Reports," requires an
   independent integrity review of reports. One report with deficiencies was not



                                       2
independently reviewed, while the independent reviews of the two other
reports with deficiencies were inadequate. Specifically, an analysis of the two
reports indicated that the independent reviews were not identifying missing
elements of findings and, in one case, did not identify that sufficient
supporting evidence was not obtained. Also, the reports for the two audits
were not fully cross-indexed, thus impeding the independent review process.

The issue of independent referencing and cross-indexing was previously
reported in the Letter of Comment from Amtrak's last peer review, which
stated that cross-referencing and independent review could be improved. In
response to the recommendation that draft reports and substantive changes
to final reports be cross-indexed to supporting workpapers and independently
referenced prior to report issuance, Amtrak Audit issued a reminder to its staff
to ensure that established procedures were to be followed.

In response to the current issues with independent referencing, Amtrak audit
management has stated that it will be revising the Audit Policies to reinforce
the requirement for independent referencing, with additional instructions for its
smaller offices where the staff all work on the same audit. They expect the
revisions to all audit policies to be completed by March 2010.

b. The control system for audits classified as limited scope audits was not
properly designed. Amtrak did not mandate that audits classified as limited
scope audits were subject to all controls established to ensure that all
applicable Government Auditing Standards were met.            Amtrak's Audit
Manual, Section 11-23, "Limited Scope Audits/Consulting Projects," states that
sUbstantial compliance with Generally Accepted Government Auditing
Standards (GAGAS) can be achieved for limited scope audits. Section 11-23
allows managers to designate exceptions to the control system when
conducting limited scope audits, but requires that the exceptions to GAGAS
be disclosed in the audit report. As a result, audits designated as limited
scope may not have been subject to all aspects of Amtrak's quality control
system. However, Government Auditing Standards do not provide for any
reduction in compliance with standards when auditors represent to others that
Government Auditing Standards were followed.           Government Auditing
Standards paragraph 1.11 requires that all applicable standards be followed
when audits are represented as following Government Auditing Standards.
Further, paragraph 1.12b of the standards discusses using a modified
GAG AS statement when (1) an audit or attestation engagement is performed
in accordance with GAGAS except for specific applicable requirements that
were not followed, or (2) the auditor was unable to and did not perform the
audit or attestation engagement in accordance with GAGAS because of the
significance of the departure from the requirements. When using a modified
GAGAS statement, the auditors are required to disclose in the report the
requirements not followed, the reasons for not following the requirements,
and how not following the requirements affected the audit.



                                    3
   Two of the four audits reviewed were designated as limited scope audits,
   while the two other audits were ambiguous about whether they were limited
   scope audits.     However, all four audits were represented as following
   Government Auditing Standards with no exceptions to government standards
   noted in the reports. By being ambiguous as to whether the audits were
   limited scope, Amtrak runs an additional risk that some full scope audits may
   be incorrectly designated as limited scope in order to bypass the controls that
   ensure compliance with Government Auditing Standards.

As a result of the weaknesses in Amtrak's control system, deficiencies were
noted in three of four audits reviewed. One of the audits reported two findings
that did not have appropriate and sufficient supporting evidence, and two other
audits reported findings that did not clearly include all elements of findings. In
addition, one of the three reports also did not rebut management comments that
disagreed with one finding, which leaves the impression that Amtrak OIG agrees
with management's position. These deficiencies more likely would have been
identified and corrected with complete cross-indexing and a more focused
independent referencing.

The errors found for each report and the impact the errors had on the reliability of
the reports are summarized at Attachment 2, which is an integral part of this
report.


Recommendations

The Deputy Inspector General- Audits should:

Recommendation 1: Enforce all requirements of Amtrak's quality control system
for all GAGAS audits even if the report contains a modified GAGAS compliance
statement.

Recommendation 2: Revise Amtrak's policy on limited scope audits to require
that all aspects of the quality control system be mandatory for all audits that claim
to have been conducted in accordance with Government Auditing Standards
(GAGAS 1.11).

Recommendation 3: Ensure that a modified GAGAS compliance statement is
included in the audit report if any applicable standard is not followed, including a
disclosure of what applicable requirement was not followed, the reason for not
following the requirement, and how not following the requirement could affect the
audit (GAGAS 1.12 and 8.30).




                                        4
Amtrak OIG Response

Amtrak OIG generally agreed with the finding and recommendations. To ensure
adherence to 2007 GAG AS a complete overhaul of the Audit Policy Manual is
underway with complete revision scheduled for March 31, 2010. Mandatory
training on the revised policies will also be undertaken. Changes to the policies
would include steps for its smaller offices, such as Boston, to take for
independent integrity reviews, eliminating the use of "Limited Scope Audits"
because of the potential for misunderstanding the intent of that policy. The
revised policies would provide guidance on performing non-audit work and
services that better encompasses work such as the "Analysis of Overtime
Wages," which was reported as a GAGAS audit but should have been non-
GAGAS work. The complete text of Amtrak OIG's comments is at Attachment 3.


2. Deficiency - Continuing professional education (CPE) was not properly
monitored to ensure that all staff members obtained appropriate CPE credits to
meet Government Auditing Standards. As a result, one individual who did not
satisfy the CPE requirements was allowed to continue to participate on audits for
over 7 months before obtaining required CPE. This issue was previously
reported in the Letter of Comment in Amtrak's last external peer review, which
stated that four auditors did not achieve the minimum continuing professional
education credits. In response to that report, audit management implemented
procedures where audit supervisors and headquarters staff in Washington, D.C.
would be kept informed of courses auditors have taken, headquarters would
maintain the official record of all courses taken and would notify audit supervisors
twice in the latter half of each year of the shortfalls that auditors needed to make
up. These procedures, however, were either not working or not followed.

A review of CPE credits for 12 of the 37 Amtrak auditors noted that 2 auditors did
not meet CPE requirements for the 2-year cycle ending December 31,2007; two
auditors were claiming credit for tax courses; and the records maintained in
Washington, D.C. were incomplete. Of the two auditors who did not meet CPE
requirements at the end of Amtrak's 2-year cycle ending December 31, 2007,
one also did not earn the minimum 20 hours for calendar years 2007 and 2008.
While one auditor earned sufficient make-up credits within 2 months of the end of
the 2-year cycle, there was no evidence that the auditor requested or received a
waiver to make up the deficiency within 2 months of the calendar year end. The
other auditor did not make up the 2007 year-end shortage until August 2008.
The auditor was also short of CPE credit for 2008, but had taken sufficient credit
by the end of February 2009 to make up the shortage. As with the first auditor,
there was no evidence of requests or approvals to make up the 2007 and 2008
shortages by the end of February in the following year. Because there were no
approvals to allow year-end shortages to be made up within 2 months of the year
end, Amtrak, in accordance with the Government Accountability Office guidance,




                                       5
should not have allowed either auditor to participate in GAGAS audits until the
shortages were cleared.

Government Accountability Office guidance allows supervisors to approve
waivers through February of the following year. As a practical matter, the
waivers probably would have been approved had they been requested.
However, the absence of request and approval highlights the lack of supervisory
oversight in Washington, D.C., where CPE monitoring was supposed to be
conducted. Further, discussions with the two auditors showed that they were not
carefully tracking their own CPE credits, and the supervisor was not tracking the
CPE credits of his staff. The Deputy Inspector General - Audits, acknowledged
that he was not monitoring the CPE progress of his staff, but was relying on an
administrative assistant to maintain a CPE record for each auditor and report
deficiencies to him. The administrative assistant currently responsible for
tracking CPE credits was assigned to the task after the deficiencies identified
above had occurred. Discussions with the administrative assistant also indicated
uncertainty as to what CPE records to keep, what information should be reported
and when it should be reported.

In addition, the system tracking CPE credits did not identify which courses
satisfied GAGAS CPE requirements and which did not. Two auditors submitted
certificates for state and Federal tax courses to Washington, D.C. for CPE credit.
Guidance from the Government Accountability Office clearly states that tax
courses are not creditable unless they're applicable to the subject matter of an
audit. Since Amtrak does not audit taxes, we believe tax courses are not
appropriate training for Amtrak auditors to receive CPE credit under Government
Auditing Standards. The auditors taking these courses had sufficient other CPE
credits during the period to meet Government Auditing Standards requirements
for the 2-year cycle ending December 31, 2007. However, these auditors could
end up with a deficiency for the 2-year period ending December 31,2009, if they
are inappropriately counting these tax courses as creditable CPE under
Government Auditing Standards.

The review noted that the CPE records maintained in Washington, D.C. were
incomplete. Certificates were not available for all courses Amtrak auditors
claimed as ta~en. The Washington, D.C. records also did not agree with the
training listed on a qualifications statement that each auditor prepares prior to
partiCipating in an audit. In addition, some of the certificates submitted were not
clear as to the number of CPE hours claimed or the formula for converting non-
hour credits into CPE hours.

A strong system to track CPE helps ensure that auditors are obtaining the
required CPE credits and assists supervisors in identifying and providing
appropriate training to staff.




                                       6
Recommendation 4: The Deputy Inspector General - Audits should design and
implement a system that accurately tracks required CPE credits. The system
should at a minimum ensure that:

•   auditors timely submit a copy of all training certificates to the administrative
    assistant in Washington, D.C. who is responsible for CPE recordkeeping.
•   the administrative assistant responsible for CPE record keeping maintains a
    file of all certificates and a record for each auditor that lists the name of each
    course taken, the date it was taken, the name of the training provider, and the
    CPE hours credited on the certificate.
•   extension requests and approvals for not obtaining sufficient CPE by the end
    of a calendar year and 2-year cycle are documented, with a copy maintained
    by the auditor, supervisor and administrative assistant responsible for CPE
    record keeping
•   CPE hours used to make up shortages in a prior year are credited only to that
    prior year and not also credited in the year in which the CPE hours were
    taken.
•   all courses taken for credit are allowable as defined by the Government
    Accountability Office.

Amtrak OIG Response

Amtrak OIG generally agreed with the finding and recommendation. While
Amtrak OIG stated that it was substantially in compliance with continuing
professional education requirements, the Deputy Inspector General - Audits has
made revisions to the posting and tracking of CPE. The complete text of Amtrak
OIG's comments is at Attachment 3.

LSC OIG Analysis of Responses

Amtrak OIG's planned actions as noted above are responsive to our review's
observations and recommendations and, if properly implemented, should
address all maters raised during this peer review.        In response to the
recommendation to improve compliance with CPE requirements, Amtrak OIG
reemphasized the GAGAS requirements to obtain 80 hours of CPE over 2 years.
While the written response does not specifically address the process of
requesting and approving extensions to the timeframe for obtaining CPE credits,
management officials did state that the new policies will include such
requirements. We are encouraged that the Amtrak OIG has completed or
intends to complete all actions on our recommendations by March 31,2010.

Attachment 3 to this report includes Amtrak OIG's full response to the above
deficiencies. The "... attached correspondence ... " referenced in Amtrak OIG's
comments was not provided with the comments and thus are not included with
the attachment.



                                        7
As is customary, we have issued a letter dated September 30, 2009, that sets
forth findings related to the design of and compliance with Amtrak OIG's system
of quality control that were not considered to be of sufficient significance to affect
our opinion expressed in this report. Amtrak OIG's response to that letter is
included as an attachment to the letter.

Sincerely,

~)/JL/ c~. Q[)
~1fId.· SChanZt:~__J~~
Inspeclor General


Enclosure




                                         8
                                                                   Attachment 1

                        SCOPE AND METHODOLOGY

We tested compliance with the Amtrak OIG's system of quality control to the
extent we considered appropriate. These tests included a review of 4 of 27 audit
reports issued during the period October 1, 2007, through September 30, 2008,
and semiannual reporting for the period April 1, 2006, through September 30,
2008. We also reviewed the internal quality control reviews performed by Amtrak
OIG.

Our review was conducted at the Amtrak OIG's Office of Audit in Washington,
D.C.

Reviewed Audits Performed by Amtrak OIG

     Report No.   Report Date    Report Title

     301-2007       5-22-08      Amtrak Leasing Practices
     302-2008       9-30-08      Boston Station Audit
     403-2008       5-28-08      Fuel Supply - Gas City Contract
     105-2007       1-09-07      Analysis of Overtime Wage




                                     9
                                                                                     Attachment 2

                                    RESULTS of REVIEWS

a. Findings Lack Appropriate and Sufficient Evidence and Do Not Include
   All Elements of a Finding.

Report No. 301-2007. Leasing Practices Audit (June 11.2008)

Of the four findings in the report, two did not have appropriate and sufficient
evidence. In addition, these two findings and another finding did not have all
elements of a finding.

•   Finding 4 stated in its entirety that "A review of a sample of leases and
    discussions with Real Estate personnel indicated that Amtrak lease contracts
    do not mandate security background screenings for tenants and their
    employees." The only supporting document referenced was an email
    response from Amtrak management which states in part, "Thanks for
    including us in your thinking on finalizing recommendations." There was no
    cross-indexing to documents that identify criteria related to requiring
    background checks. There was no cross-indexing to the sample of leases
    that do not have a background screening requirement. The only documented
    reference was to the email from management. This finding was solely about
    a potentially adverse condition and was missing criteria, cause and effect.

•   Finding 3 stated that the auditors wanted to determine if the current practice
    of including utility expenses in the square foot price of leased space protected
    Amtrak against extra-ordinary utility increases. The finding noted that typical
    Amtrak leases contain a general escalation clause rather than a specific utility
    escalation clause. The finding then proceeded to mention an interview with a
    senior manager who indicated that a utilities escalation clause could become
    part of future leases. However, there was no analysis of whether the current
    lease provisions do or do not provide adequate protection against extra-
    ordinary increases. This finding also was only about a potentially adverse
    condition and was missing criteria, cause and effect.

    The initial draft was significantly rewritten and did not include finding 3. The
    initial draft also was the only version of the report that was cross-indexed and
    then only partially. Amtrak's Audit Manual, Section 11-9, 'Workpapers," states
    that complete and accurate cross-indexing 2 in the workpaper file is an
    essential component of completing the work of the audit, and as a minimum,
    revisions to draft reports should be indexed to the supporting workpapers.
    However, the policy allows supervisors to exempt limited scope audits


2 Amtrak's policy uses the word "referencing" where we use "cross-indexing" to mean the same thing and
to differentiate from the use of "independent referencing."


                                                10
    workpapers and reports from complete cross-indexing and independent
    referencing.

    We also noted that the draft report sent to management, which typically
    solicits management's formal comments, already included management's
    comments. While management subsequently returned the draft with their
    edits, there was no cross-indexing to supporting documentation that shows all
    comments identified as management's are in fact management's. Based on
    the edits, though, management did not object to what was written as their
    position.

•   Finding 2 discussed that Amtrak leases do not always include floor plans
    detailing the space leased and cites the one instance found where the lessee
    was occupying more space than the lease authorized. The report properly
    stated that lessees should not occupy more space than the lease allows, but
    it did not discuss how the lessee ended up occupying more square footage
    than the lease allowed. The report recommended providing station managers
    with detailed floor plans, but that only partially addresses the problem of
    lessees occupying unauthorized space. Reviews of build-out plans and
    taking measurements during and after build-out are other preventive
    measures that would complement detailed' drawings to ensure lease
    requirements are followed. Regardless, even these additional measures may
    not fully address the cause of the problem because the report did not discuss
    why the lessee had more space than authorized.

The following two reports had findings that did not clearly identify all elements of
a finding, particularly cause. The primary concern is that recommendations for
corrective action should be directed at addressing the cause of the reported
problem. The Government Auditing Standards paragraph 8.28 states in part,
"Auditors should make recommendations that flow logically from the findings and
conclusions, are directed at resolving the cause of identified problems and clearly
state the actions recommended." Further, Amtrak's Audit Manual, Section 11-11,
Finding Sheets, states that failure to identify causes is extremely critical and may
result in recommendations that are unlikely to prevent future occurrences.

Report No. 302-2008, Boston Station Audit (September 30, 2008)

Of the six findings, three did not have all elements of a finding.

•   Finding 1 did not have cause or effect. The finding discussed manually
    issuing out-of-sequence tickets, missing tickets and poor record keeping, but
    it did not discuss the cause or adverse effect of these conditions. This finding
    may be a compliance issue which might mitigate the need to elaborate on the
    effect of not following a policy, but the cause of not following the policy is
    important especially when recommending effective corrective action, such as




                                        11
    recognizing that a policy is ineffective and needs reconsideration to address
    changed circumstances.

•   Finding 3 also did not have cause or effect. The finding was about spending
    station funds for inappropriate purposes, but does not discuss the cause of
    inappropriate spending.     The recommendation was to spend only on
    approved items. Without knowing the cause, the recommendation may not
    cure the issue, and there may have been a need to also recommend recovery
    of inappropriately spent funds or sanction those engaging in inappropriate
    spending.

•   Finding 5 did not discuss why die stamps were not recorded on cancelled
    tickets. Again, the recommendation that die stamps be used may not
    properly resolve the cause.

It should also be noted that the above findings did not identify the magnitude of
the problems. For example, the findings did not identify the number of tickets
issued out of sequence, the amount of inappropriate spending, and how many
die stamps were not recorded. This information is helpful in establishing
materiality.    These findings may be compliance issues where any non-
compliance could be considered a reportable issue to be corrected. Even so,
identifying the magnitude of the adverse conditions can be important information
to those who need to implement corrective actions. Government Auditing
Standards, paragraph 8.16, states the auditors should place findings in
perspective. It also states that auditors should relate the instances identified to
the population or the number of cases examined and quantify the results in terms
of dollar value, or other appropriate measures.

Report No. 105-2007. Analysis of Overtime Wages (Januarv 8. 2008)

This report was more of a statistical compilation of overtime usage than an
analysis designed to help management identify instances of fraud, waste and
abuse as the purpose the audit report was described. There were nine points
discussed in the report and basically they describe how many employees made
over $100,000 in regular and overtime wages, what job description were involved
in most of the overtime, the locales where the overtime was earned, and other
similar statistical information. There were no clearly stated deficiencies related to
the statistics presented other than it's a lot of overtime and that the statistics are
similar to an earlier audit report. As to cause, the report recommended that
management determine the root cause and report back to the Office of Inspector
General with an action plan to address the problem. Also, there were no
management comments included in the report.

Amtrak audit management stated that reviews similar to this one are occasionally
undertaken as an advisory management assignment and are not intended to be
an audit. They then stated that this audit should not have been presented as an


                                        12
audit complying with GAGAS, but as a non-audit assignment where the issues
were meant to be presented as observations not as findings. Further, they stated
that their policy revisions would include guidance on communicating and
reporting on observations in non-audit assignments.

b. No Rebuttal to Management's Comments That Disagreed With a Finding

Finding 6 of the Boston Station audit report (302-2008) did not rebut
management's comments which disagreed with the audit finding on the issue of
excess assigned working funds. Government Auditing Standards paragraph 8.36
states in part, "If the auditors disagree with the comments, they should explain in
the report their reasons for disagreement. Conversely, the auditors should
modify their report as necessary if they find the comments valid and supported
with sufficient, appropriate evidence." By not rebutting management's refusal to
reduce assigned working funds, readers likely would assume that the OIG was
accepting Amtrak management's position. If that was truly the case then this
finding probably should not have been included in the final report.

c. Designation As Limited Scope Audit May Allow Shortcuts To Proper
   Audit Oversight

The audit policy on Limited Scope audits allows shortcuts to proper audit
oversight. The Leasing Practices audit and the Boston Station audit were
ambiguous as to whether they come under the Limited Scope Audit designation.
Neither were quick response audits, taking over 17 months and 3 months,
respectively, to complete. The audit policy suggests that limited scope audits
take little time to complete such as 3 to 5 days. The initial audit program of the
Leasing Practices audit stated that it's the successor to another audit which was
cancelled in favor of expanding the scope of the audit to encompass a review of
Amtrak's leasing practices. The Boston Station audit appeared to be a routine
audit based on a standardized audit program. Neither audit was requested by
Amtrak management which is a primary reason for conducting limited scope
audits, although Audit Managers as an exception may elect to conduct a limited
scope audits. Neither of these audits was identified in the audit assignment
memoranda as limited scope. However, internal review documents prepared at
the end of each audit indicated that each was a limited scope audit. An
exception's memorandum in Leasing Practices audit cited limited scope as one
of the justifications for not following Amtrak standards. The Workpaper Review
Checklist for the Boston Station Audit cited limited scope as a reason for not
following Amtrak standards. We believe the limited scope designation may be
used to reduce the cross-indexing and independent referencing required of
normal audits.

The auditors cited another reason for not conducting independent referencing.
They stated that they do not conduct independent referencing because they all
work on the same audits so there was no one in their office who was



                                      13
independent. While it is true that this office cannot and should not conduct
independent reviews of its work, their argument does not recognize that all
Amtrak audits are recorded into an electronic audit data management system
and audit documentation can be made available to anyone approved to access
the data. As an example, auditors in Los Angeles can review the workpapers of
audits done by the Boston office.




                                   14
                      Attachment 3




AMTRAK OIG COMMENTS




       15
                                              NATIONAL RAILROAD PASSENGfR CO£lPOUJl.1I0N
                                                      alh[r 01 iIlSpr(\OI (;t'I1('(~I, I I) G ~IH'('i, tJ[, ~"it(, lW 11)1), W,dlllll!lfJH. fil }'''~IJ;




                                                                                                                            AM.TRAK
                                                                                                                            ~ .•. JV-
                                                                                                                                 ~4".



 September 4, 2009


Legal Services Corporation
Office ofInspector General
Attn: Jeffrey E. Schanz, Inspector General
3333 K Street, NW
3'd Floor
Washington, DC 20007

SUbject:        Response to RepOli on External Quality Control Review of the National
                Passenger Railroad Corporation Inspeetor General Audit Organization

Dear Mr. Schanz:

Below is our written response to the official draft peer review report dated September 13,
2009.

Peer Review Report

Thank you for the opportunity to respond to the official draft of the peer review report.
Also, thanks again for doing the review, which had not been scheduled. Overall, the
report gives us a "pass with deficiencies" and provides findings and recommendations
that will enable us to improve our audit process quality control system. Overall, we are
aware of the need to update our "Audit Procedures Manual" (APM) and started to update
it in November 2008 and anticipate a completion date of March 31,2010. Furthermore,
our plan is to provide the revised APM to all the audit staff and provide training on the
revised manual to ensure all audits are preformed in compliance with the 2007 Generally
Accepted Govenmlent auditing Standards (GAGAS) and that all the policies and
procedures governing our audits are understood and adhered with. The following arc
specific comments for the findings and recommendations:

Finding and Recommendations I
Amtrak DIG needs to ellSllre its quality cOlltrol system is followed, particularly ill regard
to independent report referencing, and Amtrak needs to improve its qllallty control
system for projects idelltifies as "limited scope audits". The report stated that three of
the four audits reviewed contained deficiencies that were not identified and corrected
before the reports were issued. Thc report recommended that the Deputy Inspector
General- Audit (1) enforce all requirements of Amtrak's quality contl'ol system for all




                                                 16
GAGAS audits even if the report contains a modified GAGAS compliance statement,
(2)revise Amtrak '.I' policy on limited scope audits to require that all aspects of the its
quality control system be mandatOlY for all audits that claim to have been conducted in
accordance with GAGAS, and (3) ensure that a modified GAGAS compliance statement
be included in the audit report if any applicable standard is no/ followed, including a
disclosure of what applicable requirement was not followed, the reason for not following
the requirement, and how not following the requirement could affect the audit.

We generally agree with the finding and the three recommendations. To enhance the
independent integrity review process of audit reports we plan to revise the APM to
reinforce the requirement and add additional internal controls to ensure GAGAS
standards were adhered with. The revised APM will also include guidance on steps to
take for independent integrity reviews for our smaller audit offices (Boston has a staff of
tlu·ee) where the entire staff may work on the audit and report, which was the case with
two of the audits selected for review (301-2007 "Amtrak Leasing Practices" and 302-
2008 "Boston Station Audit").

The use of "limited scope audits" will be eliminated in the revised APM. We were aware
of the potential for misunderstanding and use of "limited scope audits" (Section II-23,
"limited Scope Audits/Consulting Projects") prior to the peer review and planned to
remove the term from our revised APM. Our use of "limited scope audits" was intended
to be used to cover all types of audit reports that may not have been in performed in full
compliance with GAGAS. Specifically, certain reviews were undertaken as an advisory
assiglmlent and were not intended to be an audit, which was the case with the report
"Analysis ofOveliime Wages" 105-2007, selected for the review. We agree that this
report should not have been represented as a GAGAS audit, but rather as a non-audit
assignment. The revised APM will address and provide guidance on the performance of
non-audit work and reporting. In addition, the statement that reports findings that did not
include all the elements (condition, criteria, cause and effect) of a finding was due to the
intent to disclose the situation and present our observation rather than a finding. Guidance
on communication and/or reporting on observations will also be addressed in the revised
APM.

As previously stated, when the APM is revised and updated in 20 lOwe plan to distribute
it to all staff and conduct mandatory training to ensure all Amtrak's audit staff understand
the guidance on report adequacy, indexing, and independent referencing.

The Deputy Inspector General - Audits has tasked Alan Klein, Senior Director, Audits,
Washington DC, to be responsible for updating our APM. It will include improvements
for independent integrity reviews with requisite internal controls and eliminating the use




                                           17
of audit performed as "limited scope" audits, as well as a complete overhaul of the APM
to ensure it is aligned with the 2007 GAGAS. Our implementation date for the revised
APM is March 31,2010, however the revising of the manual is currently in progress and
as sections are completed they will implemented.

Finding and Recommendations 2
Continuing Education was not properly monitored to ensure that all stafJmembers
obtained appropriate CrE credits to meet Government Auditing Standards. As a result
one individual who did nol satisfY the CrE requirements was allowed 10 continue to
participate on audil over 7 months before obtaining the required crE. The report
recommends that the Deputy Inspector General- Audit design and implement a system
that tracks required CPE credits. The :,ystem should al a minimum ensure that: auditors
timely submit a copy of all training certificates to the administrative assistant in
Washington, D.C. who is responsible for CPE recordkeeping; the administrative
assistant responsible for CPE recordkeeping maintains afile of all certificates and a
recordfor each auditor that lists the name of each course taken, the date it was taken, the
name of the training provide/; and the CPE hours credited on the certificate; extension
requests and approvals for not obtaining sufficient CPE by the end of a calendar year
and 2-year cycle are documented with a copy maintained by the auditor, supervisor and
administrative assistant responsible for CPE recordkeeping; CPE hours used to make lip
shortages in a prior year are credited only to that prior year and not also credited in the
year in which the CPE hours were taken; and all courses taken for credit are allowable
as defined by the Government Accountability Office.

We generally agree with the finding and recommendation, however, it should be noted
that we were substantially in compliance with the ePE guidance. Nonetheless, during the
peer review when the issue of non compliance with oUt' ePE guidance was brought to our
altention, the Deputy Inspector General- Audits took immediate action and revised the
guidance to strengthen the internal controls and ensure there is no deviation from the
guidance.

The Deputy Inspector General- Audits Washington De, is responsible for ensuring all
audit staff are in compliance with the ePE requirements (see attached for correspondence
to the Amtrak audit staff). The Deputy Inspector General- Audits made revisions to the
posting and tracking of ePE and we consider this recommendation implemented.

Sincerely,


0~/. :1~~'
Lorraine A. Green
Interim Inspector General




                                           18
                                                                                                Legal Services Corporation

ii~ LSC
                                                                                                Office of Insp ector Genel'Sl




In spcc tor Ge ncral
Jeffrey E. Schanz



         September 30. 2009

         Ms. Lorraine A. Green
         Interim Inspector General
         Office of Inspector General
         National Passenger Railroad Corporation
         10 G Street, NE
         Washington, D.C . 20002

         Dear Ms. Green:

         We have reviewed the system of quality control for the audit function of Amtrak
         OIG in effect for the year ended September 30, 2008, and have issued our report
         thereon dated September 30, 2009, in which the Amtrak OIG received a rating of
         pass with deficiencies. That report should be read in conjunction with the
         comments in this letter, which were considered in determining our opinion. The
         findings described below were not considered to be of sufficient significance to
         affect the opinion expressed in that report.

         Finding 1. Peer Reviews Need to be Scheduled Timely, Provided to
         Appropriate Oversight Bodies and Made Publicly Available

         The Deputy Inspector General· Audits did not realize until November 2008 that
         an external peer review of the Office of Audit had not been scheduled and was
         significantly overdue by several months. The peer review should have been
         scheduled so that a report would have been issued by December 31, 2007.
         Government Auditing Standards and peer review guidance 3 require an external
         peer review be obtained every 3 years and a report issued within 9 months of
         that date. In Amtrak's case, a peer review should have been scheduled for the 3·
         year period ending March 31, 2007 with a report issued by December 31, 2007.
         In his February 24, 2009 request for an extension of its peer review cycle from
         March 31, 2007 to September 30, 2008, Amtrak's former Inspector General
         noted that Amtrak had been inadvertently left off the schedule of reviews and that
         Amtrak did not catch the exclusion. On March 30, 2009, the Council of the

         3The Council of the Inspectors General on Integrity and Efficiency administers the external peer review
         program under GAGAS for Federal Offices and publishes the Guide for Conducting External Peer Reviews
         of Audit Organizations of Offices ofInspector General. The guide elaborates on the Government Auditing
         Standards ' external peer review timing requirements.
                                                                                                 3333 K Street. NW 3rd Ftoor
                                                                                                 Washington. DC 20007·3522
                                                                                                 Phone 202.295.1660 Fax 202.337.6616
                                                                                                 www.oig.lsc.goY
Inspectors General on Integrity and Efficiency with concurrence from the
Government Accountability Office approved a one-time-only adjustment to
Amtrak's peer review cycle.

As for communicating its peer review results, Amtrak's OlGA stated that they
have not communicated the overall results and the availability of those past
reviews to appropriate oversight bodies, nor made them publicly available.
Government Auditing Standards and peer review guidance4 require internal audit
organizations to communicate the overall results and the availability of the
external peer review to appropriate oversight bodies and to make the report
publicly available.

Recommendation: The Deputy Inspector General - Audits should (a) ensure
that peer reviews of its audit activities are scheduled in accordance with
Government Auditing Standards and peer review guidance; and (b) communicate
the overall results and the availability of the external peer review to appropriate
oversight bodies; and (c) make the report publicly available

Amtrak OIG Response

Amtrak OIG concurred with the recommendation, but believes that extenuating
circumstances led to its delay in obtaining a timely peer review. Amtrak OIG
indicated that Amtrak OIG and CIGIE (formally PCIE/ECIE) should mutually
share the responsibility for the delay in Amtrak obtaining a peer review, citing the
combination of not being scheduled for a review and the retirement of its Senior
Director who was responsible for ensuring a timely review as keys to the delay in
obtaining a review. Amtrak OIG goes on to state that the replacement Senior
Director subsequently realized the delay had occurred which led to the
scheduling of the peer review

Finding 2. Update Policies and Procedures

Amtrak policies and procedures were significantly out-of-date and do not fully
incorporate the latest Government Auditing Standards. Also, the Office of Audit's
current use of automated workpapers was not incorporated in its policies and
procedures.

    •   The four audit reports reviewed included the statement about following
        Generally Accepted Government Auditing Standards (GAGAS) from the
        2003 edition of Government Auditing Standards, when they should have
        cited from the 2007 edition. The Deputy Assistant Inspector General -
        Audits subsequently issued a memorandum directing the audit staff to
        incorporate the current GAGAS statement in future reports.


4The Guide for Conducting Extemal Peer Reviews of Audit Organizations of Offices of Inspector General
elaborates on the Government Auditing Standards' external peer review reporting requirements.

                                                  2
   •   Many of Amtrak's policies and procedures were issued in the 1990s and
       referenced Government Auditing Standards from that period.
   •   Amtrak's Policies and Procedures do not include attestation agreements.
   •   Amtrak's policies and procedures emphasize paper processes, yet the
       auditors have been using automated workpapers since late in 2006.

The OlGA agreed that revisions and updates were needed and noted that some
revisions have already been tasked to specific auditors.

Recommendation: The Deputy Inspector General - Audits should ensure that
revisions to the audit manual are completed timely, and reflect current
Government Auditing Standards and Amtrak's use of automated workpapers.

Amtrak OIG Response

Amtrak OIG concurred with the recommendation and stated, "As mentioned at
the onset of the peer review, we were in the process of revising the APM prior to
the peer review. Assignments have been made in connection with this effort to
revise the APM and it is scheduled to be completed no later than March 2010."

LSC OIG Analysis of Responses

Amtrak OIG's actions taken and planned are responsive to our findings and
recommendations and should address all matters raised. In regard to the
timeliness of the peer review, Amtrak OIG is ultimately responsible for ensuring
that it receives a peer review within the allowable timeframe (Government
Auditing Standards, paragraph 3.56). CIGIE helps manage the peer review
process throughout the IG community by providing a schedule for all IGs to
follow.   However, this service does not relieve an organization of the
responsibility to obtain a peer review within the timeframe prescribed by
standards. The complete text of Amtrak OIG's comments is at Attachment 1.


Sincerely,


~~dJ         Qi,   52!2--
~aek.scha~
Inspector General

Enclosure




                                        3
                                                                          Attachment 1


                                AMTRAK OIG RESPONSE
                                        to the
                                 LETTER OF COMMENT


Lcttcr of Comment

Finding 1. Peer reviews need 10 be scheduled timely, provided to appropriate oversight
bodies, and made publicly available. The report recommended that the Deputy Inspector
General for Audit should (a) ensure that the next peer review of its audit activities is
scheduled in accordance with Government Auditing Standards and peer review
guidance; (b) communicate the overall results and the availability of the external peer
review to appropriate oversight bodies; and (c) make the report publicly available.

The failure to have our peer review done timely was a mutual PClE/EClE and Amtrak
OIG oversight. The PClE/EClE didn't include us on their schedule and we didn't detect
the oversight. Also, the Senior Director - Audits Washington DC whose responsibility
was to monitor this requirement retired early in 2008 and his replacement didn't arrive
untillale June 2008. The Senior Director - Audits Washington, DC did detcct the
oversight and action was taken immcdiately to correct thc oversight. Nonetheless we
concur with the recommendation.

Finding 2. Amtrak policies and procedures were significantly out-oi-date and do IIOt
fully incorporate the latest Governmen/ Auditing Standards. Also, the Office of Audit's
 current use of autolllated workpapers was not incorporated in its policies and
procedures.

The repOlt recommended that the Deputy Inspector General- Audits ensure tha/revisions
to the audit manual are completed timely, and reflect current Government Auditing
Standard and Amtrak's use of automated lI'orkpapers.

As mentioned at the onset of the peer review, we were in the process of revising the APM
prior to the peer review. Assignments have been made in connection with this eff011 to
revise the APM and it is scheduled to be completed no later than March, 2010.

Sincerely,


0~/fAL~'
Lorraine A. Green
Interim Inspector General




                                            4
